April 5, 2012

TO:             Marilyn Tavenner
                Acting Administrator
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Claim Modifier Did Not Prevent Medicare From Paying Millions in Unallowable
                Claims for Selected Durable Medical Equipment (A-04-10-04004)


The attached final report provides the results of our reviews of suppliers of selected durable
medical equipment claims with the KX modifier for calendar year 2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-04-10-04004 in all correspondence.


Attachment
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 CLAIM MODIFIER DID NOT PREVENT
MEDICARE FROM PAYING MILLIONS IN
UNALLOWABLE CLAIMS FOR SELECTED
  DURABLE MEDICAL EQUIPMENT




                         Daniel R. Levinson
                          Inspector General

                             April 2012
                           A-04-10-04004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1) and 1861(n) of the Social Security Act (the Act), Medicare
Part B provides for the coverage of durable medical equipment, prosthetics, orthotics, and
supplies (DMEPOS). As a result of the Medicare Prescription Drug, Improvement, and
Modernization Act of 2003, the Centers for Medicare & Medicaid Services (CMS) contracted
with four durable medical equipment Medicare administrative contractors (contractors) to
process and pay Medicare Part B claims for DMEPOS. Also, CMS contracts with Palmetto
GBA, LLC, to serve as the National Supplier Clearinghouse for the enrollment and reenrollment
of DMEPOS suppliers.

Under the statutory and policy framework of the Act, the Medicare National Coverage
Determinations Manual defines DMEPOS as equipment that can withstand repeated use, serves
a medical purpose, is generally not useful to a person in the absence of illness or injury, and is
appropriate for use in a patient’s home. For certain DMEPOS, suppliers must use the
KX modifier on filed claims. The KX modifier indicates that the claim meets Medicare coverage
criteria and the supplier has the required documentation on file. While suppliers must have a
written physician’s order and proof of delivery for all DMEPOS, suppliers must have additional
documentation on file for items requiring the KX modifier. For example, therapeutic shoes also
require that a certifying physician’s statement be on file before the supplier bills Medicare.

This report summarizes the results of individual reviews of the 4 contractors that processed the
DMEPOS claims for Jurisdictions A through D (which included all 50 States, 5 territories, and
the District of Columbia). The contractors processed approximately $9.3 billion in DMEPOS
claims with calendar year 2007 dates of service. This audit focused on $570,693,352 in paid
claims processed by the contractors for therapeutic shoes for diabetics, continuous positive
airway pressure systems, respiratory assist devices, and pressure reducing support surfaces
(groups 1 and 2) that included the KX modifier.

OBJECTIVE

Our objective was to summarize the results of the individual reviews of the four contractors that
processed the DMEPOS claims for Jurisdictions A through D for claims with 2007 dates of
service. The objective of those reviews was to determine whether the KX modifier was effective
in ensuring that suppliers of DMEPOS that submitted Medicare claims had the required
supporting documentation on file.

SUMMARY OF FINDINGS

The KX modifier was not effective in ensuring that suppliers of DMEPOS that submitted
Medicare claims had the required supporting documentation on file. Of the 400 sampled items,
suppliers had the required documentation on file for 163 items. Suppliers did not have the
required documentation on file for the remaining 237 items. As a result, the contractors made
unallowable payments totaling $19,767 for 237 of the 400 sampled items. Based on our sample,



                                                 i
we estimated the contractors paid approximately $316.4 million in unallowable Medicare
payments to suppliers.

The types of missing or incomplete documentation were:

   •   physician orders (147 of 400, 37 percent);

   •   proof of delivery (84 of 400, 21 percent);

   •   use or compliant use followup statements (78 of 312, 25 percent);

   •   physician statements (25 of 88, 28 percent); and

   •   sleep studies (7 of 312, 2 percent).

These errors occurred because the contractors did not supplement their electronic edits with
sufficient prepayment and postpayment review to ensure that suppliers maintained required
documentation. The edits could determine only whether the required KX modifier was on the
claims and did not prevent payments for unallowable claims. Also, one contractor, at the request
of the suppliers, would add the KX modifier to claims when the suppliers had neglected to insert
it.

RECOMMENDATIONS

We recommend that CMS:

   •   ensure that contractors recover the overpayments identified in our individual reports to
       contractors for specific DMEPOS items claimed for which the suppliers did not have the
       required documentation,

   •   develop an alternative mechanism such as having contractors perform additional prepay
       and postpay reviews to ensure that suppliers maintain the required documentation for the
       specific DMEPOS items included in this review that currently use the KX modifier,

   •   take appropriate action for suppliers that did not meet the supplier standard for
       maintaining proof of delivery, and

   •   issue a special alert emphasizing the documentation that suppliers must have in their files
       to support the use of the KX modifier before billing Medicare.




                                                ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and listed
actions it intends to take in response to them, consistent with its policies and procedures. In
response to our first recommendation, CMS raised concerns about the cost of reviewing
DMEPOS claims. CMS’s comments are included in their entirety as Appendix F.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the actions CMS plans to take related to our first recommendation, we agree that
CMS needs to consider the return on investment when conducting medical review activities. Our
recommendation addressed only the overpayments we identified for the sampled items.




                                               iii
                                                  TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              Contractors for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies ...................................................................................... 1
              KX Modifier Used for Durable Medical Equipment, Prosthetics,
               Orthotics, and Supplies Claims Processing ....................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 3
               Objective ............................................................................................................... 3
               Scope ..................................................................................................................... 3
               Methodology ......................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          MISSING OR INCOMPLETE REQUIRED DOCUMENTATION ................................ 4

          ERRORS BY DURABLE MEDICAL EQUIPMENT, PROSTHETICS,
          ORTHOTICS, AND SUPPLIES CATEGORY................................................................ 5
              Therapeutic Shoes ................................................................................................. 5
              Continuous Positive Airway Pressure Systems .................................................... 6
              Respiratory Assist Devices ................................................................................... 6
              Pressure Reducing Support Surfaces .................................................................... 7

          ERRORS BY CONTRACTOR ........................................................................................ 7

          KX MODIFIER SYSTEM EDITS ................................................................................... 7

          EFFECT OF UNALLOWABLE PAYMENTS ................................................................ 8

          SIGNIFICANT POLICY CHANGES RESULTING FROM AUDIT REPORTS
          TO CONTRACTORS ....................................................................................................... 8

          RECOMMENDATIONS .................................................................................................. 9

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..................... 9

          OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 10




                                                                     iv
APPENDIXES

    A: DOCUMENTATION REQUIREMENTS

    B: SAMPLING METHODOLOGY

    C: ERROR DETAILS

    D: SUPPLIERS WITH AND WITHOUT REQUIRED DOCUMENTATION IN THEIR
       FILES

    E: JURISDICTIONS A–D SAMPLE RESULTS AND ESTIMATES

    F: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                v
                                                 INTRODUCTION


BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Pursuant to sections 1832(a)(1) and 1861(n) of the Act,
Medicare Part B provides for the coverage of durable medical equipment, prosthetics, orthotics,
and supplies (DMEPOS).

Contractors for Durable Medical Equipment, Prosthetics, Orthotics, and Supplies

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(contractors) to process and pay Medicare Part B claims for DMEPOS. In addition, CMS
contracts with Palmetto GBA, LLC, to serve as the National Supplier Clearinghouse (NSC) for
the enrollment and reenrollment of DMEPOS suppliers. CMS will revoke a supplier’s billing
privileges if it finds that the supplier does not meet the supplier standards (42 CFR § 424.57(c)
and (d)). 1

This report summarizes the results of individual reviews of the 4 contractors that processed the
DMEPOS claims for Jurisdictions A through D (which included all 50 States, 5 territories, and
the District of Columbia). 2 The contractors processed approximately $9.3 billion in Medicare
DMEPOS claims with calendar year 2007 dates of service.

KX Modifier Used for Durable Medical Equipment, Prosthetics, Orthotics,
and Supplies Claims Processing

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and
generally outline the conditions under which a service or device is considered covered. The
Medicare National Coverage Determinations Manual (Pub. No. 100-03, chapter 1,
section 280.1) defines DMEPOS as equipment that can withstand repeated use, serves a medical
purpose, is generally not useful to a person in the absence of illness or injury, and is appropriate
for use in a patient’s home.

Contractors developed supplier manuals, Local Coverage Determinations (LCD), and Policy
Articles covering DMEPOS items. These materials specify the clinical circumstances under
which a DMEPOS item is considered reasonable and necessary. For covered DMEPOS items,
including therapeutic shoes for diabetics (therapeutic shoes), continuous positive airway pressure

1
    Federal requirements referenced in this document are the ones that were in effect during our audit period.
2
 We issued these reports under report numbers A-01-09-00528, A-04-09-04039, A-05-09-00094, and
A-09-09-00111.


                                                            1
 systems (CPAP), respiratory assist devices (RAD), and pressure reducing support surfaces
 (groups 1 and 2) (PRSS), LCDs require that a KX modifier be added to claims before they are
 paid. By adding the KX modifier, the supplier attests that the claim meets the Medicare
 coverage criteria and that the specific required documentation, which varies based on the
 DMEPOS item, is on file at the supplier before submitting the claim to the contractor. This
 documentation required a written physician’s order and proof of delivery for all DMEPOS, as
 well as additional documentation, such as a certifying physician’s statement for therapeutic shoe
 claims.

 Our previous audits focused on claims paid by the contractors for therapeutic shoes, CPAPs,
 RADs, and PRSSs. The LCDs for all four contractors required suppliers to have the same
 documentation on file for the categories of DMEPOS and dates of service included in our audit.

 Through contractor-issued supplier manuals, LCDs, Policy Articles, and Internet postings, the
 contractors instructed suppliers to use the KX modifier only if the claim meets the Medicare
 coverage criteria and the suppliers have the required documentation on file. However, if the
 KX modifier is not used with claims for DMEPOS that require it, the claims will be denied.

 Table 1 lists the documentation required by Medicare regulations for each of the four DMEPOS
 categories in our review. Details and examples for each are in Appendix A.

      Table 1: Documentation Requirements for Selected Durable Medical Equipment,
               Prosthetics, Orthotics, and Supplies Requiring the KX Modifier

 Documentation
Required To Be on                                        Therapeutic
 File at Supplier               Required by                Shoes         CPAP       RAD       PRSS

Physician Order         -Program Integrity Manual
                                                              X             X         X          X
(written, signed, and   (PIM), Pub. No. 100-08, ch. 5
dated)                  -LCDs
                        -42 CFR § 424.57(c)(12)
                                                              X             X         X          X
Proof of Delivery       -PIM, ch. 4
Statement of
Treating/Certifying
                                                              X                                  X
Physician Before        -The Act, § 1861(s)(12) (A-C)
Billing                 -LCDs and Policy Articles
Polysomnography
(Sleep Study) Before    -NCD                                                X         X
Physician Order         -LCDs and Policy Articles
Use or Compliant
Use Followup
Statement of                                                                X         X
Physician and/or
Beneficiary             -LCDs


                                                 2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to summarize the results of the individual reviews of the four contractors that
processed the DMEPOS claims for Jurisdictions A through D. The objective of those reviews
was to determine whether the KX modifier was effective in ensuring that suppliers of DMEPOS
that submitted Medicare claims had the required supporting documentation on file.

Scope

Of the approximately $9.3 billion in Medicare DMEPOS claims with calendar year 2007 dates of
service, we focused on $570,693,352 in paid claims for therapeutic shoes, CPAPs, RADs, and
PRSSs that included the KX modifier.

We limited our review of internal controls to gaining an understanding of the contractors’
processing of selected DMEPOS claims that were submitted with the KX modifier.

We conducted fieldwork at the four contractors’ offices and at suppliers’ locations throughout
the United States.

Methodology

To accomplish our audit objective, we reviewed applicable laws, regulations, and manuals and
interviewed contractor officials concerning both manual and electronic processing procedures for
claims with the KX modifier for therapeutic shoes, CPAPs, RADs, and PRSSs. We also
discussed the KX modifier with CMS officials.

We selected a simple random sample of 100 line items from each of the 4 contractors’ paid
claims, made unannounced visits to the 362 suppliers associated with the 400 sample line items,
and reviewed the suppliers’ files for compliance with documentation requirements. (See
Appendix B.) Also, we requested that the contractors’ staffs review the documentation provided
by the suppliers. We issued individual reports to each of the four contractors in which we
analyzed the sampled items by contractor and analyzed the errors by both type of missing
documentation and category of DMEPOS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The KX modifier was not effective in ensuring that suppliers of DMEPOS that submitted
Medicare claims had the required supporting documentation on file. Of the 400 sampled line

                                                3
items, suppliers had the required documentation on file for 163 line items. Suppliers did not
have the required documentation on file for the remaining 237 line items. As a result, the
contractors made unallowable payments totaling $19,767 for 237 of the 400 sampled line items.
Based on our sample, we estimated that the contractors paid approximately $316.4 million to
suppliers that did not have the required documentation on file to support the DMEPOS line items
with 2007 dates of service.

These errors occurred because the contractors’ electronic edits could not determine whether
suppliers had the required documentation on file when they used the KX modifier on claims.
The edits could determine only whether the required KX modifier was on the claims.

In addition, during calendar years 2007 through 2009, one contractor, at the request of the
suppliers, added the KX modifier to claims when the suppliers had neglected to insert it. This
action was inconsistent with the intended purpose of the KX modifier as an attestation that
required documentation was on file at the supplier.

MISSING OR INCOMPLETE REQUIRED DOCUMENTATION

Medicare regulations require suppliers to have specific required documentation, as applicable, on
file before billing Medicare for a DMEPOS item. The LCDs for all four jurisdictions required
suppliers to have the same documentation on file before using the KX modifier on claims for the
categories of DMEPOS and dates of service included in this audit.

The types of missing or incomplete documentation were:

   •   physician orders (147 of 400, 37 percent), which must be signed and dated and be on file
       with the suppliers for every DMEPOS item before billing Medicare;

   •   proof of delivery (84 of 400, 21 percent), which must be maintained on file with the
       suppliers for every DMEPOS item;

   •   use or compliant use followup statements (78 of 312, 25 percent), which must be
       obtained by the supplier no sooner than the 61st day after a beneficiary starts therapy to
       ensure that the CPAP is being used and that the RAD is being compliantly used;

   •   physician statements (25 of 88, 28 percent), which must be signed and dated by the
       certifying or treating physician and certify that the patient meets specific criteria for
       therapeutic shoes and PRSSs; and

   •   sleep studies (7 of 312, 2 percent), which must be documented for CPAPs and RADs and
       must not be performed by a DMEPOS supplier.

Detailed Federal documentation requirements are provided in Appendix A.




                                                  4
ERRORS BY DURABLE MEDICAL EQUIPMENT, PROSTHETICS, ORTHOTICS,
AND SUPPLIES CATEGORY

More than half of the 400 sampled items we reviewed had missing or incomplete required
documentation. Of the 237 sampled items with missing supplier documentation, 154 were
missing 1 item of documentation and 83 were missing 2 or more items. (See Appendix C.) The
following chart identifies the errors by DMEPOS category.

  Errors by Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Category




Therapeutic Shoes

Items related to therapeutic shoes made up 74 of the 400 line items in the sample. Of the 74 line
items, 41 (55 percent) had 1 or more errors, for a total of 60 errors. (See Appendix C.)

   •   Missing or incomplete physician orders accounted for 28 of the 60 errors. Physician
       orders were missing, were not signed and/or dated by the physician, or did not include the
       DMEPOS item.

   •   Missing or incomplete certifying physician statements accounted for 18 of the 60 errors.
       Physician statements were missing, were not signed and/or dated by the certifying
       physician, or did not include all of the required certifications.

   •   Missing or incomplete proofs of delivery accounted for 14 of the 60 errors. Proofs of
       delivery were missing, were not signed and/or dated by the beneficiary or designee, or
       did not include the DMEPOS item.


                                                5
Continuous Positive Airway Pressure Systems

Items related to CPAPs made up 258 of the 400 line items in the sample. Of the 258 line items,
152 (59 percent) had 1 or more errors, for a total of 214 errors. (See Appendix C.)

   •   Missing or incomplete physician orders accounted for 96 of the 214 errors. The orders
       were missing, were not signed and/or dated by the physician, or did not include the
       DMEPOS item. Also, we found suppliers that had beneficiaries sign a request to have
       CPAP supplies automatically shipped periodically to beneficiaries’ residences, but the
       physician orders did not specify frequency.

   •   Missing or incomplete proofs of delivery accounted for 57 of the 214 errors. Proofs of
       delivery were missing, were not signed and/or dated by the beneficiary or designee, or
       did not include the DMEPOS item.

   •   Missing or incomplete use or followup documentation accounted for 56 of the 214 errors.

   •   Missing sleep studies accounted for 5 of the 214 errors.

Respiratory Assist Devices

Items related to RADs made up 54 of the 400 line items included in the sample. Of the 54 line
items, 35 (65 percent) had 1 or more errors, for a total of 54 errors. (See Appendix C.)

   •   Missing or incomplete compliant use followup documentation accounted for 22 of the 54
       errors. This documentation was missing, was not signed and/or dated by the beneficiary
       and/or the certifying/treating physician, or did not include all of the required
       certifications.

   •   Missing or incomplete physician orders accounted for 19 of the 54 errors. Physician
       orders were missing, were not signed and/or dated by the physician, or did not include the
       DMEPOS item.

   •   Missing or incomplete proofs of delivery accounted for 11 of the 54 errors. Proofs of
       delivery were missing, were not signed and/or dated by the beneficiary or designee, or
       did not include the DMEPOS item.

   •   Missing sleep studies accounted for 2 of the 54 errors.




                                                6
Pressure Reducing Support Surfaces

Items related to PRSSs made up 14 of the 400 line items in the sample. Of the 14 line items,
9 (64 percent) had 1 or more errors, for a total of 13 errors. (See Appendix C.)

   •   Missing or incomplete treating physician statements accounted for 7 of the 13 errors.
       Physician statements were missing, were not signed and/or dated by the treating
       physician, or did not include all of the required certifications.

   •   Missing or incomplete physician orders accounted for 4 of the 13 errors. Physician
       orders were missing, were not signed and/or dated by the physician, or did not include the
       DMEPOS item.

   •   Missing or incomplete proofs of delivery accounted for 2 of the 13 errors. Proofs of
       delivery were missing, were not signed and/or dated by the beneficiary or designee, or
       did not include the DMEPOS item.

ERRORS BY CONTRACTOR

The error rates for the contractors ranged from 52 to 67 percent, as reflected in Table 2. The
contractors had similar errors by types of missing or incomplete documentation and DMEPOS
categories.

                                Table 2: Errors by Contractor

       Contractor            Sample Items          Items With Errors        Percent With
                                                                               Errors
           A                      100                     63                    63%
           B                      100                     52                    52%
           C                      100                     55                    55%
           D                      100                     67                    67%
          Total                   400                    237                    59%

During the audit period, contractors performed some prepayment and postpayment reviews on
various types of DMEPOS. However, the selected categories of DMEPOS may not have been
included in these reviews.

We have provided additional details on the results of the sampled items in Appendix C. Also,
Appendix D contains a map showing the locations of suppliers by contractor in our sample. The
map identifies suppliers with and without the required documentation in their files.

KX MODIFIER SYSTEM EDITS

The LCDs require DMEPOS suppliers to include the KX modifier on claims submitted for
therapeutic shoes, CPAPs, RADs, and PRSSs when the “specific required documentation is on
file.” Use of the KX modifier is an attestation by a supplier that the claim meets Medicare

                                               7
coverage criteria and the supplier has the required documentation on file for the particular item
or service. The contractors deny claims without the KX modifier, so it is in the suppliers’
interests to insert it on their claim forms.

The contractors established electronic edits to determine whether the claims submitted by
suppliers had the KX modifier. However, the contractors did not supplement these edits with
sufficient prepayment and postpayment review to ensure that suppliers maintained the required
documentation.

In addition, during calendar years 2007 through 2009, one contractor, at the request of the
suppliers, added the KX modifier to claims when the suppliers had neglected to insert it. This
action was inconsistent with the intended purpose of the KX modifier as an attestation that
required documentation was on file at the supplier.

EFFECT OF UNALLOWABLE PAYMENTS

Of the 400 items in our sample, suppliers did not have the required documentation on file for
237. As a result, the contractors made unallowable payments totaling $19,767. Based on our
sample, we estimated that the contractors paid approximately $316.4 million in unallowable
Medicare payments to DMEPOS suppliers with 2007 dates of service.

SIGNIFICANT POLICY CHANGES RESULTING FROM AUDIT REPORTS TO
CONTRACTORS

We issued individual reports to each of the four contractors. Each contractor provided written
comments in response. In their comments, the contractors agreed to:

      •    recover the payments for specific DMEPOS items claimed for which the suppliers did not
           have the required documentation;

      •    review other payments related to these DMEPOS items and recover any additional
           unallowable payments; and

      •    notify CMS, for appropriate action, of the suppliers that did not meet the supplier
           standard for maintaining proof of delivery.

The contractors stated that they had worked together to strengthen controls surrounding claims
submitted for payment that included the KX modifier. As a result of our reviews, the four
contractors’ Medical Directors stated that they jointly revised the LCDs and documentation
requirements for 17 DMEPOS policies 3 for the use of the KX and other modifiers. The revised
LCDs include more documentation requirements for both the suppliers and the certifying and
treating physicians. This information does not have to be submitted with the claim but must be
available on request. One contractor stated that these policy changes increase the effectiveness



3
    The policies were effective December 1, 2009.

                                                    8
of the KX modifier by requiring that the provider file an appeal to add or change the KX
modifier and must provide documentation to support its use.

Also, one contractor developed a proposal that included a prepayment verification process for
supplier documentation to improve the effectiveness of the KX modifier.

The contractors stated that they were aware that the suppliers’ lack of documentation supporting
the use of the KX modifier for the specific DMEPOS items included in this review was a
widespread problem. While the contractors have described the steps that they are taking to
strengthen controls surrounding claims submitted for payment that included the KX modifier, the
high error rate across the country indicates the need for CMS to take additional steps.

RECOMMENDATIONS

We recommend that CMS:

   •   ensure that contractors recover the payments identified in our individual reports to
       contractors for specific DMEPOS items claimed for which the suppliers did not have the
       required documentation,

   •   develop an alternative mechanism such as having contractors perform additional prepay
       and postpay reviews to ensure that suppliers maintain the required documentation for the
       specific DMEPOS items included in this review that currently use the KX modifier,

   •   take appropriate action for suppliers that did not meet the supplier standard for
       maintaining proof of delivery, and

   •   issue a special alert emphasizing the documentation that suppliers must have in their files
       to support the use of the KX modifier before billing Medicare.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and listed
actions it intends to take in response to them. CMS said that it would:

   •   pursue the recovery of identified overpayments in our previously issued reports to
       individual contractors, consistent with its policies and procedures, but raised concerns
       about the cost of reviewing DMEPOS claims;

   •   inform the Medicare administrative contractors and the reviewers of fee-for-service
       claims, the Recovery Auditors, to consider the report findings in prioritizing their
       prepayment and/or postpayment reviews;

   •   instruct the NSC “to further investigate allegations” that suppliers did not maintain proof
       of DMEPOS delivery; and


                                                9
•   develop an educational article that clearly explains what documentation must be
    maintained by suppliers in their files to support the use of the KX modifier on a Medicare
    claim for DMEPOS.

OFFICE OF INSPECTOR GENERAL RESPONSE

In response to the actions CMS plans to take related to our first recommendation, we agree
that CMS needs to consider the return on investment when conducting medical review
activities. Our recommendation addressed only the overpayments we identified for the
sampled items.




                                            10
APPENDIXES
                                                                                        Page 1 of 2


                  APPENDIX A: DOCUMENTATION REQUIREMENTS

PHYSICIAN ORDERS

The Program Integrity Manual (PIM), chapter 5, sections 5.2.1 and 5.2.2, states that all durable
medical equipment, prosthetics, orthotics, and supplies (DMEPOS) suppliers are required to keep
on file a physician order for each item. The treating physician must sign and date the order.
Section 5.2.3 states that if the supplier does not have a written order signed and dated by the
treating physician before billing Medicare, the item will be denied.

PROOF OF DELIVERY

Pursuant to the supplier standard (42 CFR § 424.57(c)(12)), the supplier “[m]ust be responsible
for the delivery of Medicare covered items to beneficiaries and maintain proof of delivery.”
Also, the PIM, chapter 4, section 4.26, requires suppliers to maintain proof of delivery
documentation in their files for 7 years. Section 4.26.1 outlines proof of delivery requirements
for different methods of delivery. Section 4.26 also states that, for “any services, which do not
have proof of delivery from the supplier, such claimed items and services shall be denied and
overpayments recovered.”

PHYSICIAN STATEMENTS

Pursuant to the Social Security Act, § 1861(s)(12)(A), the physician must certify that the patient
meets specific criteria for therapeutic shoes. The Local Coverage Determinations (LCD) and
Policy Articles for therapeutic shoes and pressure reducing support surfaces (groups 1 and 2)
(PRSS) state that DMEPOS items are covered if the supplier obtains a signed and dated
statement from the certifying or treating physician saying the patient meets specific criteria. The
physician’s statement must be signed and dated sometime during the year before the date of
service for therapeutic shoes, and the Policy Articles state that the items will be denied if the
requirements are not met.

SLEEP STUDIES

The LCDs effective during our audit period for the continuous positive airway pressure systems
(CPAP) (E0601) and for the respiratory assist devices (RAD) (E0470) require that the
beneficiary have a documented polysomnographic study. Additionally, polysomnographic
studies must not be performed by a DMEPOS supplier.

USE OR COMPLIANT USE FOLLOWUP DOCUMENTATION

The LCDs effective during our audit period for the CPAP and for the RAD state that, for an
E0601 (CPAP) and an E0470 (RAD) to be covered beyond 3 months of therapy, the supplier
must determine no sooner than the 61st day after the beneficiary starts therapy that the CPAP is
being used and that the RAD is being compliantly used. For the CPAP, either the beneficiary or
the treating physician must confirm that the beneficiary is continuing to use the CPAP, and the
supplier must maintain documentation that the requirement has been met. For the RAD, the
                                                                                    Page 2 of 2


supplier must obtain signed statements from both the treating physician and the beneficiary
stating that the RAD is being compliantly used. The LCDs state that continued coverage of the
RAD will be denied if the requirements are not met.
                      APPENDIX B: SAMPLING METHODOLOGY

POPULATION

The population consisted of specific categories of DMEPOS items (therapeutic shoes for
diabetics, CPAPs, RADs, and PRSSs) that DMEPOS suppliers claimed for calendar year 2007
dates of service using the KX modifier under Medicare Part B.

SAMPLE FRAME

The sampling frame consisted of 6,606,197 DMEPOS line items totaling $570,693,352 for
calendar year 2007.

SAMPLE UNIT

The sample unit was a line item.

SAMPLE DESIGN

We used simple random samples.

SAMPLE SIZE

We selected 4 samples of 100 line items each.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General (OIG), Office of Audit
Services (OAS), statistical software.

METHOD OF SELECTING SAMPLE ITEMS

The sampling frames were consecutively numbered. After generating 100 random numbers for
each of 4 contractor jurisdictions, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used OIG/OAS statistical software to estimate the amount of potentially unallowable
payments.
                                                                      APPENDIX C: ERROR DETAILS


                                                            DMEPOS             Total                        Number of Errors                       Line Items
                       TYPES OF                             Required            in                                                                 With Only
           MISSING DOCUMENTATION                               for            Sample           Total       CPAP       TS *        RAD      PRSS     One Error
Proof of Delivery                                              All                     400           84       57             14     11         2            22
Physician Prescription/Order                                   All                     400          147       96             28     19         4            82
Use or Compliant Use Followup Documentation                CPAP, RAD                   312           78       56              0     22         0            38
Polysomnogram or Other Required Study                      CPAP, RAD                   312            7        5              0      2         0              2
Physician Certifying Statement                              TS, PRSS                    88           25        0             18      0         7            10

 Total Errors (Duplicated Count)                                                                    341       214            60       54      13           154

                                                                                                       5

            CATEGORIES OF DMEPOS                             Dollars          Items           Items in Items in Dollars            1      2            3             4          Multiple
                                                             Tested           Tested         Allowed † Errors in Error            Error Errors       Errors        Errors       Errors ‡
CPAP                                                            $17,546                258           106   152   $10,300             102    39                10            1          50
Therapeutic Shoes for Diabetics                                   7,918                 74            33    41     3,935              24    15                 2            0          17
RAD                                                               6,264                 54            19    35     2,968              22     8                 4            1          13
PRSS                                                              4,418                 14             5      9    2,564               6     2                 1            0            3

 Totals                                                          $36,146               400          163       237    $19,767         154      64              17            2          83

* Therapeutic shoes are a one-time purchase.
† Of these 163 sampled items, 9 were for suppliers who were no longer active or under investigation and were considered nonerrors.
‡ Of the 237 unallowable sampled items, 83 had multiple errors.

DMEPOS = durable medical equipment, prosthetics, orthotics, and supplies
TS = therapeutic shoes for diabetics
                      APPENDIX D: SUPPLIERS WITH AND WITHOUT REQUIRED DOCUMENTATION IN THEIR FILES 





                                                                                                          Jurisdiction B




                                                                                                                                                       Jurisdiction A




               JUI"isdiction D




                                                                                                                                                 Jurisdiction C




                                                                                                                              SUPPLIERS VISITED
                                                                                                                 *   suppliers WiCk Missbtc or 1JIce..,lete Doewnentatioa
                                                                                                                 *   Suppll.ers Widt Doc_atatioa




I   In our sample, there was one supplier located in Alaska and none in Hawaii. Documentation was missing for the selected item in Alaska.
 APPENDIX E: JURISDICTIONS A–D SAMPLE RESULTS AND ESTIMATES

                ESTIMATES OF UNALLOWABLE PAYMENTS
              (Limits Calculated for a 90-Percent Confidence Interval)

                                 POINT             LOWER             UPPER
        JURISDICTION           ESTIMATE             LIMIT            LIMIT

               A                 $54,040,694       $42,702,383    $65,379,005
               B                  55,422,915        43,750,627     67,095,204
               C                 137,404,646       103,735,580    171,073,712
               D                  69,577,013        52,575,987     86,578,040
             TOTAL              $316,445,268


                     JURISDICTION A SAMPLE RESULTS

                                                       Number of          Value of
 Frame       Value of       Sample      Value of       Unallowable       Unallowable
   Size       Frame          Size       Sample          Payments          Payments
1,020,402   $96,722,670       100       $10,373            63              $5,296


                     JURISDICTION B SAMPLE RESULTS

                                                       Number of           Value of
 Frame        Value of      Sample      Value of       Unallowable       Unallowable
   Size        Frame         Size       Sample          Payments          Payments
1,390,415   $117,042,423      100        $7,992            52               $3,986


                     JURISDICTION C SAMPLE RESULTS

                                                       Number of          Value of
 Frame        Value of      Sample      Value of       Unallowable       Unallowable
   Size        Frame         Size       Sample          Payments          Payments
3,024,176   $257,266,589      100        $8,478            55              $4,544

                     JURISDICTION D SAMPLE RESULTS

                                                       Number of          Value of
 Frame       Value of       Sample      Value of       Unallowable       Unallowable
   Size       Frame          Size       Sample          Payments          Payments
1,171,204   $99,661,670       100        $9,303            67              $5,941
         APPENDIX F: CENTERS FOR MEDICARE & MEDICAID SERVICES 

                               COMMENTS                        Page 1 of3 


        DEPARTMENT OF HEALTH & HUMAN SERVICES                                   Centers for Medicare & Medicaid Services


                                                                                Administrator
                                                                                Washington, DC 20201




DATE:         JAN 0 9    ~012

TO:           Daniel R. Levinson


FROM:


SUBJECT:      Office ofInspector General (OIG) Draft Report: Claim Modifier Did Not Prevent
              Medicare from Paying Millions in Unallowable Claims for Selected Durable
              Medical Equipment, (A-04-10-04004)

Thank you for the opportunity to review and comment on the OIG Draft Report titled "Claim
Modifier Did Not Prevent Medicare from Paying Millions in Unallowable Claims for Selected
Durable Medical Equipment (A-04-10-04004)." The Centers for Medicare & Medicaid Services
(CMS) appreciates the time and resources OIG has invested to review this issue. The OIG's audit
focused on paid claims with 2007 dates of service for therapeutic shoes for diabetes, continuous
positive airway pressure systems, respiratory assist devices, and pressure reducing support surfaces
processed by the Durable Medical Equipment Prosthetics/Orthotics and Supplies (DMEPOS)
contractor for each of Jurisdictions A, B, C and D. The objective of the audit was to determine
whether the KX modifier was effective in ensuring that DMEPOS suppliers that submitted these
Medicare claims had the required supporting documentation on file.

The CMS understands that the lack of sufficient documentation within DMEPOS supplier files to
support claims that were submitted with the KX modifier is a widespread issue. The finding ofthis
audit that only 163 of the 400 sampled line items were supported by the required documentation on
file at the supplier further validates the importance of this matter. Based on the results, OIG
estimates that the Medicare program overpaid suppliers approximately $316.4 million. OIG
recommends that CMS recover the overpayments; develop an alternative mechanism, such as
having contractors perform additional prepay and post pay reviews, to ensure that suppliers
maintain the required documentation for the DMEPOS items that currently use the KX modifier;
take appropriate action against identified suppliers that did not meet the supplier standard for
maintaining proof of delivery; and conduct supplier education on the documentation that suppliers
must have in their files to support the use of the KX modifier.

We have reviewed the report and have responded to your recommendations.

OIG Recommendation

Ensure that contractors recover the overpayments identified in our individual reports to contractors
for specific DMEPOS items claimed for which the suppliers did not have the required
documentation.
                                                                                            Page 2 of3
Page 2 - Daniel R. Levinson

CMS Response

The CMS agrees that overpayments should be recovered as appropriate. CMS is pursuing the
recovery of the identified overpayments in the previously issued 010 reports to individual
contractors, consistent with the agency's policies and procedures.

The CMS must always consider the return on investment when conducting medical review due to
the limited resources available for medical review activities. The 010's overpayment projection
assumes ifCMS reviewed additional DMEPOS claims we would identify $316.4 million in
improper payments. The universe of claims in this study is greater than 6.6 million. The major
claim error identified in this report is lack of required documentation. This problem can only be
identified through manual review. Therefore, CMS would have to conduct review on all of the 6.6
million claims in the universe. This suggested universe is nearly 300 percent more than the
universe of claims actually reviewed by CMS in FY 2011. Oiven the medical review and
overpayment recovery costs associated with this recommendation, CMS would need over $165
million in funding to review the claims from this study alone.

Oiven CMS' limited resources, we attempt to focus the medical review resources on the most
highly vulnerable areas as identified by sources such as the Comprehensive Error Rate Testing
(CERT) program, individual contractor data analyses, and other reports, including 010 audits.
Many of the items identified in this report are part of the medical review strategies of the Durable
Medical Equipment Medicare Administrative Contractors for FY 2012, however given resource
constraints it is impossible to review every claim with a KX modifier.

OIG Recommendation

Develop an alternative mechanism such as having contractors perform additional prepay and post
pay reviews to ensure that suppliers maintain the required documentation for the specific DMEPOS
items included in this review that currently use the KX modifier.

CMS Response

The CMS concurs. The CMS will provide the Medicare Administrative Contractors (MACs) with a
link to the final 010 report. CMS will inform the MACs that these findings are informational and
should be considered a source of data as they prioritize their prepayment and/or postpayment review
workload, along with all other data they consider.

Also, Recovery Auditors review Medicare fee-for-serviceclaims, including DMEPOS claims, on a
post payment basis and are tasked with identifying overpayments and underpayments. While CMS
does not mandate areas for review, we will share the final 010 report with the Recovery Auditors
and encourage them to consider it as they decide what claims to review on a post-payment basis.

OIG Recommendation

Take appropriate action for suppliers that did not meet the supplier standard for maintaining proof 

of delivery. 

                                                                                           Page 3 of3
Page 3 - Daniel R. Levinson

CMS Response

The CMS concurs. The National Supplier Clearinghouse (NSC) is responsible for investigating
suspected violations of the DMEPOS supplier standards found at 42 CFR § 424.S7(c), including the
requirement that suppliers maintain proof of delivery (42 CFR § 424.57(c)(12». A sample of
records is reviewed to ensure that the supplier maintains proper documentation, including delivery
records and physician orders. In instances where the supplier is determined to not be in compliance
with the supplier standards, the NSC can recommend that CMS revoke a supplier's Medicare billing
privileges. CMS will instruct the NSC to further investigate allegations that suppliers did not
maintain proof of DMEPOS delivery, as required under 42 CFR § 424.S7(c )(12).


OIG Recommendation

Issue a special alert emphasizing the documentation that suppliers must have in their files to support
the use of the KX modifier before billing Medicare.

CMS Response

The CMS concurs. The CMS will develop an educational article that clearly explains what
documentation must be maintained by suppliers in their files to support the use of the KX modifier
on a Medicare claim for DMEPOS.

The CMS appreciates the OIG's efforts and insight on this report CMS looks forward to
continually working with the OIG on issues related to waste, fraud and abuse in the Medicare
program.
